OFFICE OF INSPECTOR
U.S. DEPARTMENT OF LABOR
OFFICE OF AUDIT



           JOB CORPS NEEDS TO STRENGTHEN
           MANAGEMENT AND OVERSIGHT OF
            THE STUDENT TRANSPORTATION
                       SYSTEM




                               Report No. 09-02-200-03-370
                               Issued: March 29, 2002
                               TABLE OF CONTENTS


                                                                     Page

EXECUTIVE SUMMARY                                                     1

INTRODUCTION AND BACKGROUND                                           3

      The Job Corps Program                                           3
      Principal Criteria                                              4
      The Travel Process During Our Audit Period                      4
      The 2001 OIG Audit                                              5
      Views of the Office of the Chief Financial Officer (OCFO)       5
      New Program Guidance                                            6

OBJECTIVE, SCOPE, AND METHODOLOGY                                     7

FINDINGS AND RECOMMENDATIONS

      The Job Corps Program Lacked Adequate Management Controls       8
             to Properly Account for “New Student” Travel
      The Job Corps Program Has No Systematic Methodology to          9
             Track and Recover Unused Transportation Tickets
             Issued for Student Vacation Breaks, Administrative
             Leave, or Termination
      Job Corps Officials Do Not Have Adequate Control over Credit    9
             Card Use
      Regional Staff Made Multiple Errors when Processing             10
             the Monthly Credit Card Payments
      Conclusion                                                      11
      Recommendations                                                 12


APPENDIX A            Glossary of Acronyms and Abbreviations          14
APPENDIX B            ETA Response                                    15




  U.S. Department of Labor   Office of Inspector General

                                                 ii
                               EXECUTIVE SUMMARY


The Office of Inspector General (OIG) audited how effectively the Job Corps Program controls
unused airline tickets and pays student transportation charges. We reviewed transportation
expenses in three Job Corps Regions (Kansas City, Atlanta, and Philadelphia) during the 15-
month period January 1, 2000 to March 31, 2001. We found that no formal, national system
exists for controlling Federal funds spent for student transportation. Program officials do not
have assurance that:

   •    trips were for Job Corps students only;
   •    trips were for legitimate reasons;
   •    transportation modes used were economical;
   •    fares were reasonable;
   •    tickets were used; and
   •    refunds for unused tickets were returned to the Job Corps Program.

Additionally we found that Job Corps’ and the Employment and Training Administration’s
(ETA) Regional staffs were not complying with the Prompt Payment Act. We concluded that
Job Corps lacked adequate management controls necessary to properly account for $21.6 million
in yearly transportation expenditures.

At the conclusion of our fieldwork, Job Corps was unable to properly account for about $5.8
million of transportation tickets dating back to 1994. This $5.8 million reflects only amounts
attributable to a student’s initial trip to a Center. Of greater concern, however, is the lack of
control over transportation tickets issued at the two yearly vacation breaks, for administrative
leave, or at Program termination. The value of unrefunded tickets for these activities could be
significant because the majority of student travel takes place for these reasons. We received
information from 27 of the 52 centers included in our audit showing 1,867 airline tickets, issued
between January 2000 and March 2001, had not been used. Three hundred and thirteen (17
percent) of these tickets had not been refunded to the Job Corps credit card accounts. However,
the Centers did not provide enough information to determine the value of the 313 tickets.

The lack of (1) a system and (2) management direction caused confusion and misinformation at
all levels of the student transportation process – from the Job Corps Regional Office level to the
Center operator and admissions contractor level. Center operators managed the travel process
using credit cards given to them by the Regional Offices. A total of 141 cards were
distributed to incur travel related charges at the Regional and local level. Also, Job Corps and
ETA Regional staffs made multiple errors when processing the monthly credit card payments.
During the audit, we met with and briefed representatives from the Offices of Job Corps and the
Chief Financial Officer (CFO). At a November 2001 meeting, we were told the current system

   U.S. Department of Labor   Office of Inspector General

                                                  1
would be replaced and the Citibank travel credit cards would be deactivated at the beginning of
calendar year 2002.

Moreover, in January 2002, Job Corps officials issued interim procedures to enhance the
accountability of the student transportation system. Although we commend Job Corps for taking
prompt action to address concerns raised during our audit, we believe additional action is
necessary. For example, the interim procedures rely heavily on Transcor providing certain
services, even tho ugh in a March 2001 audit report we concluded no legal authority existed that
allowed the use of Transcor as the primary provider of student transportation arrangements.

On February 25, 2002, we issued a draft report recommending the Assistant Secretary for the
Employment and Training Administration (ETA) direct Job Corps management to immediately
establish specific, standardized operating controls that will ensure the appropriate and prudent
use of student transportation expenditures. The specific controls should address these issues, at a
minimum:
    • justify trip necessity and transportation mode;
    • document order and receipt of transportation tickets;
    • track ticket use;
    • identify and collect refunds due;
    • produce monthly center/contractor management status reports;
    • ensure prompt payment of transportation billings; and
    • mandate annual monitoring by Job Corps Regional staff.

We also recommend Job Corps management determine which tickets were used and which
tickets were not used and not refunded and seek refunds, as appropriate.

On March 29, 2002, the Assistant Secretary for ETA responded to the draft report. The response
stated general agreement with our recommendations and Job Corps officials’ intent to implement
them as soon as practicable. The response also stated that additional review of their
administrative support contractor records resulted in proper accounting of all but about $200,000
of transportation tickets, including recovery of $200,000 of unused tickets for new student travel.

The response also took issue with some of the language used to describe the findings in the draft
report. We have modified this language where appropriate. A copy of ETA’s response is
included as Appendix B.

We believe the actions proposed by ETA will satisfy our recommendations. We will verify
implementation of the actions during the audit resolution process.




   U.S. Department of Labor   Office of Inspector General

                                                  2
                      INTRODUCTION AND BACKGROUND


Our audit of the Job Corps student transportation process was conducted in two phases. During
the first phase, we focused on the services provided by Transcor Inc., a private- for-profit travel
agency1 . During the current phase, we focused on determining how effectively the Job Corps
Program controls unused airline tickets and pays student transportation bills.


The Job Corps Program

The Department of Labor, ETA, Office of Job Corps administers the Job Corps Program
throughout the country. The Program is authorized under Title 1, Subtitle C of the Workforce
Investment Act (WIA) of 1998.

The Job Corps Program is operated at 118 Centers in 46 states, the District of Columbia, and
Puerto Rico. Each year the Program serves more than 70,000 students at an annual cost of $1.3
billion.

Job Corps is a full-time, year-round residential program that offers academic education,
vocational training, work experience, counseling, and other supportive services to low-income
youth ages 16 to 24. One of the supportive services provided to students is transportation from
their homes to Job Corps Centers. Government paid trips are arranged for initial enrollment,
termination from the Program, summer break, winter break, emergency leave, and administrative
leave. Government furnished transportation is authorized in the WIA regulations (20 CFR
670.600).

Transportation costs reported for program year 2000 (July 1, 2000 through June 30, 2001) were
$21.6 million. Students are transported to and from Centers via airplanes, trains, buses, and local
transportation providers. Program officials do not currently collect information on the number of
students receiving Government paid transportation or the transportation modes used.




1
    Audit Report No. 09-01-202-03-370 issued March 26, 2001.


     U.S. Department of Labor    Office of Inspector General

                                                     3
Principal Criteria

Analyses of the Job Corps transportation process included review and application of statutory
and regulatory criteria included in:

   •   Title I, Subtitle C of the WIA of 1998;
   •   Federal Acquisition Laws at 41 USC § 253;
   •   Student Transportation provisions at 20 CFR 670.600;
   •   Prompt Pay requirements at 5 CFR Part 1315;
   •   Management Accountability and Control Requirements at OMB Circular A-123; and
   •   Financial Management System Controls at OMB Circular A-127.

We also reviewed and applied provisions of the Department of Labor Manual Series (DLMS)
Chapters 850 and 900 pertaining to use of contracts and, preparation and approval of payments.
Additionally, we applied provisions of the Job Corps Policy and Requirements Handbook.



The Travel Process During Our Audit Period

Transcor, a private- for-profit travel agency, made the majority of the student transportation
arrangements. They booked the reservations, transmitted the tickets/itineraries to the Center
operators/admissions contractors, and charged the cost of each airline ticket to Job Corps credit
cards issued by Citibank.

The Job Corps Regional Office staff approved the monthly Citibank bills and transmitted them to
ETA finance staff for entry into the Department of Labor’s Accounting and Related Systems
(DOLAR$). Oversight of DOLAR$ is the responsibility of the Department’s Office of the Chief
Financial Officer (OCFO).

An administrative support contractor, Joint Action in Community Services (JACS), verified
transportation tickets for “new students” (the initial trip to the Center). JACS personnel
identified tickets for students who did not arrive at the assigned Centers, tracked refunds for the
unused tickets, and provided monthly reports to the Job Corps National Office. The monthly
reports identified the number and cost of unused tickets, the number and cost of credits received,
and the number and cost of unaccountable unused tickets (i.e., if a student was a “no show” and
no credit for the unused ticket had been received).




   U.S. Department of Labor   Office of Inspector General

                                                  4
The 2001 OIG Audit

In our audit report number 09-01-202-03-370, issued March 26, 2001, we reported two findings
associated with the Job Corps student transportatio n system that required immediate Job Corps
management scrutiny:

     1. We found no legal authority that allowed the use of Transcor as the primary provider of
        student transportation arrangements.

     2. Job Corps Data Center, Job Corps Center, and Transcor staff released student privacy
        information in violation of the Privacy Act of 1974 and the Social Security Act.

ETA officials acknowledged that they needed to review the current policies, procedures and
practices related to student transportation and consider alternatives to ensure student travel was
handled in an effective, cost efficient manner and in accordance with applicable regulatory
requirements. They also stated that Job Corps would look into current practices and develop
strategies to make improvements in the way student travel arrangements were made and to
strengthen oversight capabilities. They also planned to implement procedures by March 30,
2001, to stop the release of students’ social security numbers.

On April 17, 2001, Job Corps officials issued Program Instruction No. 00-23 regarding assigning
student traveler identification numbers. According to the Program Instruction, all Centers must
immediately stop providing student social security numbers to travel agencies. In addition, the
Job Corps Data Center will generate a traveler identification number for each student that will be
used in place of the social security number for all student travel. While we have not audited the
Program Instruction implementation, we believe it should address the finding.



Views of the Office of the Chief Financial Officer (OCFO)

The acting Chief Financial Officer (CFO) via memo to the Assistant Inspector General for Audit
on July 27, 2001, stated in regards to OIG’s audit of the Job Corps student transportation
process:

       The Office of the Chief Financial Officer (OCFO) has completed our own
       review of the system. We found substantial weaknesses in program
       operations and have determined that the current system does not provide
       reasonable assurance that travel funds are managed properly. We have
       further concluded that the Job Corps Centers are the only ones who are in
       a position to verify student enrollee travel. Therefore, OCFO believes the
       Job Corps Centers should have more travel program responsibility.



   U.S. Department of Labor   Office of Inspector General

                                                  5
       We met with and shared our findings with ETA’s Job Corps staff who
       agreed with our conclusion. Job Corps staff is now taking action to phase
       out the current Citibank travel card operation and has advised OCFO that
       the transfer of management responsibility for student enrollee travel to the
       Job Corps Centers will be completed by December 2001.

OIG, OCFO, and Job Corps staff met on November 6, 2001, to discuss the status of the changes
to the student transportation process. Job Corps staff stated they were planning for the Center
operators and admission contractors to arrange for and purchase transportation tickets for student
travel. The new policy was scheduled to take effect after the December 2001 break. According
to OCFO staff, the Citibank travel credit cards would be deactivated at the end of December
2001 or the beginning of 2002.



New Program Guidance

On January 7, 2002, Job Corps officials issued Program Instruction No. 01-13, Interim
Procedures for Tracking, Recovering, and Refunding Unused Transportation Tickets. According
to Job Corps officials, the interim procedures are a short-term patch and not a permanent
solution. The interim procedures were issued in response to OIG and OCFO concerns that the
student transportation process lacked accountability.

OIG has not audited the interim procedures. Although we commend Job Corps for taking
prompt action to address the concerns raised during our audit, we believe additional action is
needed. Specifically, per the Program Instruction, the Job Corps Program continues to:

           •   use Transcor to arrange transportation tickets even though no contractual
               arrangement exists between Transcor and the Department of Labor, and

           •   allow the Job Corp Regional staff to approve and process payments to Citibank
               even though Regional staff has no knowledge about the propriety, legality, or
               accuracy of the individual charges.




   U.S. Department of Labor   Office of Inspector General

                                                  6
              OBJECTIVE, SCOPE, AND METHODOLOGY


The overall audit objective was to determine how effectively the Job Corps Program controls
unused airline tickets and pays student transportation bills. The audit included transactions
occurring between January 1, 2000 and March 31, 2001.

We conducted audit fieldwork from April 2001 to December 2001. During fieldwork, we
reviewed and analyzed documents and interviewed staff from the Job Corps National and
Regional Offices, ETA Regional Finance Divisions, Job Corps Centers, admission contractors,
JACS, OCFO, Citibank, and airlines. We held an exit conference with ETA and Job Corps
National Office officials on February 12, 2002.

We conducted audit fieldwork at three Job Corps Regional Offices. The Kansas City, Atlanta,
and Philadelphia Regions were selected as they had the highest reported transportation costs per
DOLAR$. In fact, these three Regions accounted for approximately 76 percent of the total
transportation costs recorded in DOLAR$.

We requested information on unused airline tickets from the 52 Centers in these three Regions.
We did not visit the Centers or audit their procedures for identifying and tracking unused airline
tickets.

We relied upon purchase and credit transaction information reported by Citibank. We obtained
electronic files of all Job Corps transactions from Citibank for the period January 2000 to April
2001. We did not audit the Citibank system. We matched unused tickets, identified by Center
personnel, to credit transactions reported by Citibank in order to identify ticket refunds due the
Job Corps Program.

We also relied upon cumulative unused ticket information captured and reported by JACS as of
March 31, 2001. We did not audit the JACS ticket verification procedures.

Our audit work was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. Our audit included tests of policies, procedures, and
travel processes we considered necessary in the circumstances.




   U.S. Department of Labor   Office of Inspector General

                                                  7
                  FINDINGS AND RECOMMENDATIONS



 The Job Corps Program Lacked Adequate Management
 Controls to Properly Account for “New Student” Travel

Reports prepared by JACS personnel identified about $5.8 million of what they believed were
unused airline, bus, and rail tickets for “new student” travel, dating back to 1994.

The reports prepared by JACS, while informative, did not reflect full documentation or proper
accounting for tickets. For example, the March 2001 report showed $3.8 million in cumulative
outstanding tickets. However, our audit found that:

   •   JACS personnel turnovers created staffing gaps and periods when the transportation
       verification tasks were not performed.

   •   Two Job Corps Regional Offices did not provide credit card statements for JACS
       personnel to review.

   •   One Job Corps Regional Office approved JACS removal (in April 2000) of all
       unaccountable, unused ticket records ($2 million) that were over one-and-a-half years old
       from the records.

Job Corps Program officials were cognizant of the need to track, properly account for, and
attempt recovery of unused or lost “new student” transportation tickets. Several years ago,
Program officials attempted to gain control of the “new student” travel process. Starting in 1994,
Job Corps added a transportation verification provision to its contract with JACS. In summary,
the contract responsibilities have been applied to “new student” travel (the student’s initial trip
from home to the center). JACS personnel identify “no shows” and review credit card billings to
identify unused tickets that have not been credited to the card accounts. All types of
transportation tickets are included – airline, bus, and rail. They also identify the organizational
entity responsible for ordering the ticket and provide Job Corps Regional and National Offices
with monthly reports showing the delinquencies.

In total, the JACS records showed $5.8 million in unused transportation tickets. However, we
had no assurance the records were complete or accurate. Further, we could not understand why,
if the tickets were listed as unused, recovery efforts had not been initiated.




   U.S. Department of Labor   Office of Inspector General

                                                  8
 The Job Corps Program Has No Systematic Methodology
 to Track and Recover Unused Transportation Tickets
 Issued for Student Vacation Breaks, Administrative Leave,
 or Termination

As discussed in the previous finding, Job Corps has a system for collecting information on
unused transportation tickets for students traveling to Centers for the first time. It has no such
system, however, for collecting this information on the majority of the $21.6 million incurred for
student travel. The majority of travel occurs at the biannual vacation breaks, for student
administrative leave, and at program termination.

Although our testing showed that Centers had identified unused tickets, we could not determine a
total value of these tickets. Having no viable tracking system hinders Job Corps management’s
ability to recover refunds on unused tickets. Or conversely, the lack of a tracking system has
placed the Program in the position of not being able to demonstrate it is effectively managing its
transportation expenditures.

For example, we had officials of the three Job Corps Regions contact Centers within their
jurisdiction and ask the Centers to send us any information they had on unused airline tickets.
Fifty-two Centers were contacted. One Center was a non-residential facility and had no student
travel. Of the remaining 51 Centers:

   •   27 provided either copies of trip itineraries, office travel logs, or tickets for 1,867 airline
       tickets which they claimed were unused;
   •   14 stated they kept no records; and
   •   10 stated they had no unused airline tickets.

Using the 13-digit airline ticket number for the 1,867 unused tickets, we searched the Citibank
credit card billing files and found the majority of the unused tickets had been refunded and the
credit card balances had been adjusted. This search also showed 313 of the tickets (or about 17
percent) could not be matched to Citibank credit entries. Because most of the Centers only
identified the ticket number and not the dollar value, we could not determine the amount of
uncollected refunds due the program.


 Job Corps Officials Do Not Have Adequate Control
 over Credit Card Use
The Job Corps Program obtained 141 centrally billed travel credit cards to purchase student
transportation tickets. However, the current use of these credit cards raises serious control
issues.


   U.S. Department of Labor   Office of Inspector General

                                                  9
The Job Corps Regional Offices provide the credit card numbers to Center contractors and
Transcor. These personnel make the travel arrangements. The Regional Job Corps officials,
authorized as card users, have no knowledge of the legitimacy of the individual ticket
transactions. Monthly, the Regional Office receives a bill, but these Regional Job Corps officials
cannot verify the individual line- item charges.

We also found that about a third (47) of the cards had not been used at all; and that only 26 cards
were used to purchase airline tickets. We do not know how many Center or travel agency staff
has access to the credit card numbers. Additionally, since the credit card numbers are printed on
paper airline tickets and electronic ticket receip ts, the numbers are also available to students.



    Regional Staff Made Multiple Errors When
    Processing the Monthly Credit Card Payments

We found the Job Corps and ETA Regional Office staff made multiple errors when approving
Citibank credit card payments and when entering payment information into DOLAR$. These
errors resulted in the Department paying funds it did not owe and failure to remit interest
penalties, as required by the Prompt Payment Act, when payments are late.

We verified that the payments to Citibank, as recorded in DOLAR$, were supported by Citibank
billing statements. However, we found multiple errors in the processing of the monthly
payments. Processing errors at all three Regions included:

     •   Not paying the “total payment due” amount in a timely manner. Staff would wait for
         one to two months after receipt of bills to pay amounts due. This placed the Department
         in a position of being liable for interest penalties under the Prompt Pay Act regulations.

         For example, in one Region, the January and February 2000 bills were not paid until
         April 24, 2000. Using the Daily Simple Interest Formula 1 defined in the Prompt Payment
         Regulations at 5 CFR Part 1315.17, we estimate the interest penalty due, for the two bills,
         is approximately $2,536. No prompt payment interest penalty was calculated or remitted
         because the two bills were not entered into DOLAR$.

             Charges               Date Bill                           Current         Interest     Days
            For Month              Received         Due Date           Charges          Rate        Late
         January 2000               2/4/00           3/5/00          $186,019           6¾%          50
         February 2000              3/7/00           4/6/00          $234,585           6¾%          18


1
    The daily simple interest formula = invoice amount x (prompt payment interest rate/360 x number of days late).


     U.S. Department of Labor     Office of Inspector General

                                                      10
   •   Not entering the actual bill receipt date in DOLAR$. Staff would enter a fictitious
       “date received,” which was usually later than the actual date received, thus bypassing the
       prompt payment interest penalties.

       For example, in one Region, the February 2001 bill for January charges was date stamped
       received February 2, 2001. The “date received” entered into DOLAR$ was March 6,
       2001. The amount due was paid March 13, 2001 – more than 30 days after receipt of the
       bill. No prompt payment interest penalty was calculated or remitted.

   •   Not paying the actual amount due. Staff would miscalculate the amount due. These
       types of errors resulted in instances where staff paid more than the amount due or less
       than the amount due. These errors usually occurred because the staff did not subtract the
       “payment- in-transit” from the “total payment due” on the current month’s billing
       statement.

       For example, in one Region, staff paid $144,261 more than the actual amount due. The
       October bill for September charges, received October 9, 2000, showed $372,987 was due
       October 23, 2000. Included in the $372,987 due was the previous month’s bill balance of
       $144,261. The $144,261 was paid on September 26, 2000. On October 19, 2000, the
       staff paid $372,987, which resulted in an overpayment of $144,261. The overpayment
       was shown on the next month’s bill as a credit.


Conclusion

We concluded that Job Corps lacked adequate management controls necessary to properly
account for $21.6 million in yearly transportation expenditures. The process used by Job Corps
did not provide adequate assurance that:

   •   trips were for Job Corps students only;
   •   trips were for legitimate reasons;
   •   transportation modes used were economical;
   •   fares were reasonable;
   •   tickets were used; and
   •   refunds for unused tickets were returned to the Job Corps Program.

Additionally, we concluded the Job Corps and ETA Regional staffs were not approving and
processing credit card account payments in accordance with the Prompt Payment Act.




   U.S. Department of Labor   Office of Inspector General

                                                 11
Recommendations

We recommend the Assistant Secretary for Employment and Training direct Job Corps
management to immediately establish specific, standardized operating controls that will ensure
the appropriate and prudent use of student transportation expenditures. The specific controls
should, at a minimum:

   •   justify trip necessity and transportation mode;
   •   document order and receipt of transportation tickets;
   •   track ticket use;
   •   identify and collect refunds due;
   •   produce monthly center/contractor management status reports;
   •   ensure prompt payment of transportation billings; and
   •   mandate annual monitoring by Job Corps Regional staff.

We also recommend the Assistant Secretary for Employment and Training direct Job Corps
management to determine which tickets were used and which tickets were not used and not
refunded and seek refunds, as appropriate.

ETA Response

Agency officials stated they generally agreed with our recommendations and intended to
implement them as soon as practicable. They provided specific information showing action
proposed or already taken on each of our findings. Additionally, they asked for clarification or
modification of language we used in the draft report. Where appropriate, we made the requested
clarifications and modifications. See Appendix B for the full text of ETA’s response. Regarding
our two recommendations, Agency officials stated:

   1. Job Corps management, with assistance from other appropriate offices within the
      Department, will design and implement appropriate operating controls in an expeditious
      manner. The current plan is to design a system that will centralize the management of
      student transportation operations from the regional level, where it now resides, to the
      national level. The development work will be performed over the next 12 to 18 months.
      During this time period, student transportation operations will continue within the
      existing administrative framework.

   2. The travel agency that arranges for most of the student travel researched the ticket
      balances shown on the JACS reports. They reported they had identified and resolved
      almost all the unused ticket balances shown on the reports. They have: clarified the
      status of tickets listed on the report; referred $500,000 to the transportation carriers for
      follow-up; received $200,000 of credits for unused tickets; and have less than $200,000

   U.S. Department of Labor   Office of Inspector General

                                                 12
       pending resolution by the carriers. Additionally, JACS has been provided with specific
       guidelines and requirements for ticket verification. Further, regarding the $2 million
       reported as “written off” by one Regional Office, Job Corps is attempting to identify and
       resolve as many of these tickets as possible. Job Corps, however, will need to make a
       determination about the cost versus the return before committing major resources.

OIG Comments

The system design ETA proposes would satisfy our first recommendation. The recommendation
can be resolved when ETA provides an action plan detailing the specific steps to be taken along
with the proposed completion dates. Our second recommendation can be resolved after
verification of the information provided by the travel agency.

OIG, however, continues to be concerned about the legality of the current administrative
framework. (See page 6 – New Program Guidance.) ETA should obtain a legal opinion from
the Solicitor’s Office to evaluate the practice of using Transcor to arrange transportation tickets
and having Job Corps Regional staff approve and process payments to Citibank even though the
staff have no knowledge about the propriety, legality, or accuracy of the individual charges.




   U.S. Department of Labor   Office of Inspector General

                                                 13
                                       APPENDIX A

                     Glossary of Acronyms and Abbreviations




            CFO             Chief Financial Officer

            CFR             Code of Federal Regulations

            DLMS            Department of Labor Manual Series

            DOLAR$          Department of Labor Accounting and Related Systems

            ETA             Employment and Training Administration

            GSA             General Services Administration

            JACS            Joint Action in Community Services

            OCFO            Office of the Chief Financial Officer

            OIG             Office of Inspector General

            OMB             Office of Management and Budget

            WIA             Workforce Investment Act

            U.S.C.          United States Code




U.S. Department of Labor   Office of Inspector General

                                              14
                                       APPENDIX B

                                     ETA RESPONSE




U.S. Department of Labor   Office of Inspector General

                                              15
U.S. Department of Labor   Office of Inspector General

                                              16
U.S. Department of Labor   Office of Inspector General

                                              17
U.S. Department of Labor   Office of Inspector General

                                              18
U.S. Department of Labor   Office of Inspector General

                                              19
U.S. Department of Labor   Office of Inspector General

                                              20
